ee

Case 8:18-cv-02243-PX Document 46 Filed 05/16/19 Page 10 of 11

obtain a search warrant.4 To sustain this claim, Latimer must demonstrate that Jones (1)
“knowingly and intentionally or with a reckless disregard for the truth either made false statements
in their affidavits or omitted facts from those affidavits, thus rendering the affidavits mislead ing,”
and (2) that such false statements or omissions “are material, that is, necessary to a neutra] and
disinterested magistrate’ s authorization of the search.” Evans v. Chambers, 703 F.3d 636, 650
(4th Cir. 2012) (internal quotation marks, citations, and brackets omitted). Whether such false
Statements are material requires the Court to “excise the of fending inaccuracies and insert the facts

recklessly omitted, and then determine whether or not the corrected warrant affidavit would

   
  
 
 
  
  
   
    
    
 
 
 
     
 

establish probable cause. If the corrected warrant affidavit establishes probable cause, no civil
liability lies against the officer.” Miller v, Prince George's Cty., Md., 475 F.3d 621, 628 (4th Cir,
2007) (internal quotation marks, citations, and brackets omitted); see also United States v. Karo,
468 U.S. 705, 719 (1984) (noting in context of criminal prosecution that “if sufficient untainted
evidence was presented in the warrant affidavit to establish probable cause, the warrant was
nevertheless valid.”).

In averring that Jones “lied to obtain a search warrant,” Latimer concentrates on the
stricken through portion of the affidavit in Support of the warrant. See ECF No. 33-3 at 7 (ones
“avers that based upon the two (2) above described controlled purchases as well as other

investigation...”), Latimer also agrees, however, that the judge who reviewed the atfidavit caught

——<$<— _—$_—___ _ _ Stacy

 

 

the: error and only author ized the warrant after ordering a to excise the 0 Mending portion. Cr

No. 33-2 at 3. Consequently, the undisputed evidence, ewe most favorably to Jones,

demonstrates that the “lies” of which Latimer complains were nor part of the probable cause

4. Although Latimer characterizes his claim against Jones as a Due Proces
described as a violation of his Fourth Antendment tights to be free from warrant
however, does not change the analysis,

 

 

 
 

violation, itis more accurately

 
